March 23, 2001



MEMORANDUM FOR            SANDRA N. BATES
                          COMMISSIONER
                          FEDERAL TECHNOLOGY SERVICE (T)


FROM:                     DAVID K. STONE
                          REGIONAL INSPECTOR GENERAL FOR AUDITING
                          GREAT LAKES REGION (JA-5)

SUBJECT:                  Review of Center for Information
                          Security Services, Federal Technology Service
                          Report Number A001031/T/5/Z01003

This report presents the results of our review of the Center for Information Security
Services. A draft of the report was submitted to you for your comments. The comments
were considered in preparing the final report and are included in their entirety as an
appendix. We wish to express our appreciation to the officials and other employees of
the Center for Information Security Services for their cooperation and courtesies
extended during the review.

Section 810, Prompt Resolution of Audit Recommendations, of the National Defense
Authorization Act (Public Law 104-106), effective February 10, 1996 directs that
management decisions are required within six months of the audit report issue date.
Nevertheless, as required by GSA Order ADM P 2030.2B, a time-phased plan of action
addressing the report recommendations and the Management Decision Record for
Internal Audit (MDR) should still be submitted within 60 days. Section B of the MDR
should be completed. Please submit the complete package to the Assistant Inspector
General for Auditing (JA), with a copy to the Audit Followup and Evaluation Branch
(BECA).

Final actions on all management decisions must be completed within 12 months of the
audit report issuance date; otherwise the OIG will be required to report in its
Semiannual Reports To Congress matters on which final actions remain open 12
months after the report issue date. Therefore, upon completion of negotiations, send a
copy of the negotiation memorandum to the Regional Inspector General for Auditing
(JA-5) in accordance with GSA Order ADM P 2030.2B.
Attached is a Customer Satisfaction Questionnaire, developed to obtain feedback
regarding whether the report and related audit services meet customer expectations.
We request that the primary user of this report complete the questionnaire and return it
in the enclosed envelope to:

                                Treva Crawford
                                Director, Operation Staff (JAO)
                                General Services Administration
                                Office of Inspector General
                                18th and F Streets, NW. Room 5316
                                Washington, DC 20405

If you have any questions, please contact Franklin Moy or me on (312) 353-7781,
extensions 112 and 110, respectively.
               REVIEW OF
CENTER FOR INFORMATION SECURITY SERVICES
      FEDERAL TECHNOLOGY SERVICE
    REPORT NUMBER A001031/T/5/Z01003
              MARCH 23, 2001
                             REVIEW OF
              CENTER FOR INFORMATION SECURITY SERVICES
                    FEDERAL TECHNOLOGY SERVICE
                  REPORT NUMBER A001031/T/5/Z01003


                             TABLE OF CONTENTS
                                                                        PAGE


REPORT LETTER                                                             1
INTRODUCTION                                                              2
    Background                                                            2
    Objectives, Scope and Methodology                                     3
RESULTS OF REVIEW                                                         4
    Brief                                                                 4
    Findings and Recommendations                                          5
            Finding 1 – Overspent Customer Orders Deplete The IT Fund     5
            Finding 2 – Excess Customer Funds                            12
            Finding 3 – Transferring Funds Between Orders                18
MANAGEMENT’S PRELIMINARY RESPONSE                                        20
INTERNAL CONTROLS                                                        20
APPENDICES
    A. Examples of Overspent Customer Orders                             21
    B. Excess Funds That Should Be Considered for Deobligation
       As of November 2000                                               23
    C. Examples of Excess Customer Funds                                 24
    D. FTS Commissioner’s Response to the Draft Report                   27
    E. Report Distribution                                               28
   DATE:    March 23, 2001
REPLY TO
ATTN. OF:   Regional Inspector General for Auditing, Great Lakes Region (JA-5)

SUBJECT:    Review of Center for Information Security Services
            Federal Technology Service
            Report Number A001031/T/5/Z01003

      To:   Sandra N. Bates, Commissioner
            Federal Technology Service (T)

            This report presents the results of the Office of Inspector General’s review of the
            Center for Information Security Services (CISS).

            CISS, formerly known as the Office of Information Security, provides support services
            to federal agencies with national security defense, diplomatic, and communications
            missions.

            This review was conducted as part of the Office of Inspector General’s annual audit
            plan. Our specific audit objectives were to answer the following questions: Is CISS
            effectively managing and properly using customer funds? If not, what is the effect on
            customer funds? If the effect is significant, what can be done to improve the order
            management process?

            CISS provided goods and services to its customers without always obtaining adequate
            funding. CISS overspent 280 customer orders by $6.4 million since fiscal year 1993.
            Additionally, CISS has many customer orders with excess funds that are unused and
            apparently unneeded. We determined that excess funds, some from orders dating as
            far back as 1993, are valued at about $7.9 million. Lastly, CISS did not always ensure
            that transfers of funds were between orders having a similar purpose and scope.

            We believe these problems have occurred because CISS, due to a fragmented
            organizational structure, has not developed policies and procedures that reflect its
            current operating needs.

            We have included your written response to the draft report as an appendix to this
            report.



            FRANKLIN M. MOY
            Audit Manager
            Great Lakes Region (JA-5)

                                                     1
                                REVIEW OF
                 CENTER FOR INFORMATION SECURITY SERVICES
                       FEDERAL TECHNOLOGY SERVICE
                     REPORT NUMBER A001031/T/5/Z01003

                                    INTRODUCTION

BACKGROUND
The Center for Information Security Services (CISS), formerly known as the Office of
Information Security prior to October 1, 2000, provides support services to federal
agencies with national security defense, diplomatic, and communications missions. In
addition, CISS develops Government policy on information security matters. CISS
officials have often served as Government-wide executives charged with assuring that
Federal agencies’ information security programs are in line with Government policies.

Historically, the repair and maintenance of secured communications equipment has
been a core part of CISS’ business. However, over the years, the organization evolved
into a provider of higher-level systems, including state of the art, multi-agency,
international secured communication services. During the 1990s, CISS became an
international organization of over 400 employees, with field offices located in Europe
and the Pacific Rim.

CISS provides information security services to requesting agencies on a reimbursable
basis. CISS classifies its information security workload into three distinct service areas.
These areas are 1) individual time and materials work, 2) recurring monthly
maintenance and repair work, and 3) contracting services for a fixed fee. Contracting
services can involve both the acquisition and installation of equipment. By 1999,
contracting work had become the staple of CISS’ operations, accounting for up to 45
percent of its work.

CISS, until recently, operated on an advance bill basis, with the requesting agency
obligating and disbursing funds prior to the start of work. CISS personnel advised us
during our review that they had changed to standard billing. Under standard billing, the
requesting agency disburses funds as work is completed.

CISS, although staffed with capable people, encountered difficulty responding to the
tremendous pace of change in the information security arena. Our review found that
CISS employees simply were not provided the tools to properly manage their accounts.
In recent years, CISS was plagued by substantial losses, amounting to 10 to 20 percent
of service revenues. In response to the losses, the Federal Technology Service (FTS)
reorganized CISS effective October 1, 2000. Most CISS field offices are now under the
control of the region in which they are physically located. International operations are
now managed by other FTS business lines. The remaining main CISS activity is the
core information security services group, which is the subject of this audit report.


                                            2
OBJECTIVES, SCOPE AND METHODOLOGY

This review was conducted as part of the Office of Inspector General’s annual audit
plan. Our specific audit objectives were to answer the following questions:

1. Is CISS effectively managing and properly using customer funds?

2. If not, what is the effect on customer funds?

3. If the effect is significant, what can be done to improve the order management
   process?

To accomplish our objective, we:

♦ Performed a computer analysis of the entire database of CISS’ customer orders,
  which dates back to 1993, determining obligated amount, billed amount, accrued
  amount, and the dollar balance for each of over 2,000 open orders;

♦ Used the computer analysis to construct a comprehensive evaluation of CISS’
  income accruals totaling over $18 million;

♦ Reviewed 77 customer orders, dating from fiscal year 1993 through fiscal year 2000,
  and related accounting and financial records as necessary;

♦ Interviewed CISS personnel regarding order processing and billing procedures, and
  the procedures for handling and controlling customer obligations;

♦ Visited two field offices and interviewed six field technicians regarding changes
  within the organization and in the nature of CISS’ work;

♦ Discussed the accounting entries for CISS' customer orders with officials from GSA's
  Greater Southwest Finance Center, especially the areas of income accruals and
  advance billings; and

♦ Discussed FTS financial management policy with GSA’s Office of the Chief Financial
  Officer and GSA’s Office of General Counsel.

We did our onsite review from June through November of 2000. The audit was
performed in accordance with generally accepted Government auditing standards.




                                            3
                                REVIEW OF
                 CENTER FOR INFORMATION SECURITY SERVICES
                       FEDERAL TECHNOLOGY SERVICE
                     REPORT NUMBER A001031/T/5/Z01003

                                 RESULTS OF REVIEW

BRIEF
CISS provided goods and services to its customers without always obtaining adequate
funding. As a result, CISS overspent 280 customer orders by $6.4 million since fiscal
year 1993. CISS has paid expenses for these orders using reserves from the
Information Technology Fund (IT Fund), consequently reducing the cash levels of the IT
Fund. This situation has hindered FTS’ efforts to increase the balance of the IT Fund.

CISS has not obtained additional funds for many of these overspent orders. CISS’
accounting practices have postponed the need for taking action on overspent orders,
thereby increasing the likelihood that many of these orders are uncollectable. This
situation has resulted in potentially inaccurate financial reports including, in particular,
overstatements of prior years’ income for CISS operations.

CISS has many customer orders with excess funds that are unused and apparently
unneeded. We determined that excess funds, some from orders dating as far back as
1993, are valued at about $7.9 million. CISS has no written procedures for the
disposition of these excess funds, and many of these balances appear to have been
forgotten.

Additionally, CISS regularly transfers funds between orders without always ensuring
that they have a similar purpose and scope. Therefore, CISS may not be fulfilling its
fiduciary responsibility to properly manage customer funds.

We believe these problems have occurred because CISS, due to a fragmented
organizational structure, has not developed policies and procedures that reflect its
current operating needs. CISS’ primary type of work has changed dramatically in
recent years from recurring maintenance and repair agreements to contracting services.
However, the organization has relied on the same basic policies and procedures for
managing customer orders as it did in the past. Contracting services, which now
represent about 85 percent of CISS’ gross revenue, often involve large sums of funds
and cross fiscal years. For example, contracting services accounted for $116,856,500
of CISS’ gross revenue for fiscal year 1999; about $100,000,000 of this amount
represented flow-through costs. Because of the increased financial risks they present,
these orders require a much more rigorous order management system than the one
CISS’ had developed to support its traditional recurring maintenance and repair work.

We previously issued a report, dated November 29, 2000, alerting FTS management to
the findings described in this report. This report, however, describes those findings in a
more comprehensive manner.

                                             4
                             FINDINGS AND RECOMMENDATIONS


FINDING 1 – OVERSPENT CUSTOMER ORDERS DEPLETE THE IT FUND

Our review showed that CISS overspent 280 orders by a total of over $6.4 million as of
November 9, 2000. CISS has consistently overspent orders since 19931. In fact, our
analysis shows that CISS overspent at least 59 orders by a total of about $423,030 in
calendar year 2000 alone.

CISS’ over-expenditures deplete the IT Fund. CISS is funded on a reimbursable basis
using the IT Fund. When CISS provides services to customers in excess of available
customer funds, CISS pays the cost overruns out of the IT Fund.

Furthermore, a substantial portion of CISS’ expenditures for overspent orders
represented direct payments to vendors or contractors as shown in the chart below.
Unlike the fixed costs associated with using CISS’ internal resources, the variable cost
of contracting services poses an unlimited financial risk to CISS. By providing
contracting services in excess of available customer funds, CISS is essentially buying
some services for the customer agency for free! The potential for financial loss is
unlimited as long as CISS continues to provide contracting services without recovering
the flow-through costs.


                                           Overspent Amounts
                                            By Service Type

                 $4.0 million (63%)                                  Payments to
                                                                     Vendors or
                                                                     Contractors
                                                                     Internal CISS
                                                                     Resources
                                              $2.4 million (37%)



For example, three Navy orders from 1997 and 1998 (customer order numbers
97002043, 98002043, 97002158) illustrate the impact of overspending orders for
contracting services. These orders collectively represent payments to contractors
totaling $392,064 more than available customer funds. From 1997 to February of 1999,
CISS purchased $5,052,874 of computer equipment from outside vendors for this
customer. As of November 2000, the customer’s funding totaled only $4,660,810.
CISS paid the shortfall of $392,064 using IT Fund reserves.


1
  Due to the limitations of CISS’ customer order database, our data includes only open orders dating back
to fiscal year 1993 as of November 9, 2000.


                                                   5
Expenses in excess of available customer funds such as those mentioned above
impose a considerable financial strain on the IT Fund. FTS has had consistent
problems, dating back to 1997, maintaining the balance of the fund. In fact, FTS has
relied on transfers from PBS in recent years to maintain the balance of the IT Fund.
CISS’ overspending practices have contributed to the declining balance of the fund and
have made effectively managing the fund more difficult.

All components of GSA are subject to GSA Order ADM 4200.2A, Administrative Control
of Funds. This order states that the reimbursable effort is constantly monitored to make
sure that expenditures do not exceed the amounts allowed. The order also states that
an obligation for reimbursable work is not made, or work started until a firm written
agreement is executed between the performing GSA organization and the requesting
Federal agency. Our review noted that sometimes CISS would provide services without
receiving the requesting agency’s purchase order. In doing so, and in overspending
orders, CISS has not adhered to this order.

Our on-site review found that CISS employees regularly transferred funds from one
order to another order to offset overspent amounts. However, our analysis of Federal
financial management regulations (appropriations law) indicated that any transfer of
funds from one order to another without a consideration of the bona fide needs rule is
inappropriate. See FINDING 3 – TRANSFERRING FUNDS BETWEEN ORDERS for a discussion
of this issue.

Effect of Income Accruals on Financial Statements
CISS’ accounting practices decreased the likelihood that overspent orders would be
collected, resulting in an overstatement of income. Additionally, these practices
resulted in a misstatement of CISS’ financial position by overstating asset and liability
accounts.

CISS’ billing system treated the overspent amount as an unbilled income accrual. In
other words, an unbilled income accrual is an accounting entry recognizing income
before actual receipt of payment. In general, accrual entries are automatically reversed
at the beginning of the next month in order to prevent a duplication of income when
payment is received. However, CISS accrued, reversed, and then re-accrued
overspent amounts with the assumption that CISS would bill the customer at some point
in the future and at that time would recognize the overspent amount as earned income.
The table below shows examples of accruals that were repeated in fiscal years 1998,
1999, and 2000:




                                           6
                  Examples of Accruals Repeated in 1998, 1999, 2000
                                      1
               Order #   Year Created     1998 Accrual 1999 Accrual 2000 Accrual
             93000209         1993        $    38,984   $    38,984    $    38,984
             94000748         1994        $   136,122   $   136,122    $ 136,122
             96001482         1996        $   580,237   $   580,237    $ 580,237
             96001825         1996        $   545,644   $   545,644    $ 545,644
             96001462         1996        $   231,167   $   176,333    $ 176,333
             96001488         1996        $    85,485   $    85,485    $    85,485
             96001471         1996        $    34,317   $    34,317    $    34,317
             96000779         1996        $    29,704   $    29,704    $    29,704
             96000937         1996        $    25,328   $    25,328    $    25,328
             96000356         1996        $    21,517   $    21,517    $    21,517
             96001492         1996        $    21,501   $    21,501    $    21,500
             96000961         1996        $    15,872   $    15,872    $    15,872
               Total                                                   $ 1,711,043
       1
           Our test was for the years indicated. These accruals could have begun in the year the
           order was created.

CISS did not always obtain additional funding for overspent orders nor did management
define a point at which overspent amounts were declared uncollectable. Thus, unbilled
income could stay on the books indefinitely while CISS waited to receive additional
funds. The longer CISS waited to contact the customer regarding additional funds, the
less likely it became that those funds could be collected. By not obtaining additional
funds and by repeatedly accruing these overspent amounts, CISS has overstated its
income in previous years.

Our analysis of accruals posted in November of 2000 indicated that uncollectable
amounts could total at least $1.4 million. For the purposes of our analysis, we defined
orders with a date of last service prior to calendar year 1999 uncollectable. CISS had
93 orders with unbilled overspent amounts totaling $1.4 million. See Appendix A for
some examples of these and other overspent orders. These unbilled amounts appear
to be well past the point of being collectable. CISS can not continue to accrue these
amounts as income and should declare them uncollectable or, if possible, collect
additional funds from customers to cover these overspent amounts.

Impact on Financial Position
Overspending has caused a misrepresentation of CISS’ accounts and has affected
FTS’s ability to accurately project future expenditures out of the IT Fund. In addition to
recording overspent amounts as accrued income, CISS has recorded available
customer funds as accrued income as well. If a charge for services is only partially
unfunded, CISS’ billing system creates an income accrual entry for the entire charge.
For example, as of November 2000, customer order number 96001825 for the
Securities and Exchange Commission (SEC) had $534,929 available. In April 1997,

                                                    7
services totaling $545,644 were charged against this order. Since the system could not
apply a partial charge to an order, the whole charge was treated as an unbilled income
accrual. However, the amount overspent was only $10,715. The available customer
funds ($534,929) should have been posted to earned income. Otherwise, CISS’
deferred income account is overstated.

Inappropriate income accruals, such as the one described above, cause inaccuracies in
CISS’s financial statements and reports. For example, when GSA received payment
from the SEC for the order described above, the $534,929 was recorded as a debit to
cash and a credit to deferred income. When the $545,644 charge was applied to the
order, CISS recorded the entire amount as a debit to unbilled receivables and a credit to
accrued income.

Under CISS’ incorrect entries, the amount of available funds ($534,929) from SEC was
recorded twice on GSA’s books: once as a debit to cash with a credit to deferred
income, and again as debit to unbilled receivables with a credit to accrued income.
Under the correct entries, the available funds would have been posted to earned
income (with a commensurate reduction in deferred income) and only the overspent
amount would have been treated as accrued income (with a commensurate increase to
unbilled receivables).

Overall, of the approximate $13.3 million of accruals that represented overspending as
of November 9, 2000, about $6.5 million represented available customer funds.
Amounts totaling about $6.5 million were entered into the deferred income account and
were never credited out even after CISS had performed services for the customer.
Likewise, these amounts were inappropriately recorded as unbilled receivables. These
entries result in an overstatement of GSA’s liabilities and accounts receivable.

In addition to the overstatements of assets and liabilities, CISS’ Customer Unfilled
Orders Report has been overstated as well. This report is used to estimate CISS’ future
expenditures and to determine CISS’ authority to incur obligations. By misrepresenting
their financial position and overstating their amount of unfilled customer orders, CISS
had increased the difficulty of effectively managing the IT Fund.

Causes of Overspending
We believe CISS’ overspent order problem has been caused by a combination of
factors as follows:

CISS had a fragmented organizational culture. CISS had a fragmented organization
and had not developed a strong culture for coordination and communication between
departments. Employees from several different departments were involved in order
management and had little need to closely coordinate their work. Historically, most
agreements were for recurring maintenance and repair services, which meant that
CISS’ fees remained constant regardless of the amount of work CISS did. A technician
provided services at the customer’s request, an account executive communicated with
the customer regarding service agreements and terms, a financial manager processed
                                           8
the financial documentation, and the need for frequent communication between the
departments was relatively minor.

The following example demonstrates how CISS’ fragmented organization and lack of
communication led to mistakes of great magnitude. Air Force order number 98001961
had an available balance of over $970,000 as of August 2000. Charges for this order
totaling about $921,000 were mistakenly applied to order number 98001294 which was
created in fiscal year 1998 for the Justice Department. This resulted in the Justice
Department order appearing overspent by almost $800,000. Assuming that the Justice
Department order had simply been overspent, the project manager responded to the
negative balance by transferring about $526,000 to the order from order number
99001961 created in fiscal year 1999 for the same customer. By transferring funds from
one order to the other without ensuring that the services were the same or that the
customer was the same, Justice Department funds were used to cover an Air Force
order.

CISS employees did not have easy access to up-to-date order information. As
CISS began providing contracting services, technicians could incur expenses without
the project manager's knowledge. Where a well-designed and easily accessible order
management system might have solved this problem, CISS’ databases resembled the
old CISS for which they were created; they were fragmented and obsolete.

An improved order management system could prevent CISS from being liable for their
customer’s expenses. Customer order number 97002247 for the State Department was
overspent by over $857,000 as of August 2000. Our review determined that over
$801,000 of the shortfall represented the services of one contractor CISS had procured
to perform work for the customer.

The contractor billed GSA $801,733 for services provided the State Department during
the period June 1, 1999 through April 28, 2000. Further analysis showed that the State
Department, although the contractor was performing work at one of their locations, did
not obligate funds to reimburse CISS until April 10, 2000. Additionally, we determined
that CISS did not issue a purchase order covering the contractor’s invoice for $801,733
until April 14, 2000.

Our conclusion was that a “scramble” occurred to pay this contractor once it became
known that the State Department had not provided funding. A rigorous order
management system capable of “flagging” problem orders might have warned CISS
officials that funding for the contractor’s services had not been provided. In this
instance, GSA would have been liable for the amounts due the contractor if the State
Department had not belatedly obligated the funds.

Project managers lost track of the orders they were supposed to be managing.
CISS management attempted to improve these problems by turning account executives
and some technicians into project managers who provided “cradle-to-grave” order
management. However, they did not develop an effective method of assigning orders.
Many times during our review, we presented project managers with an order which they
                                          9
ostensibly managed only to hear that they had no idea the order existed. Upon further
investigation, we found that account executives or project managers literally “handed
over” orders to new project managers. The new project manager was responsible for
updating the assignment code in CISS’ database. These records were incorrect more
often than not.

CISS employees were not held accountable for overspent orders.              Since
management had no definitive way of knowing which orders were assigned to the
different project managers, they had no way of evaluating each project manager’s
performance. Consequently, they had no way of holding project managers accountable
for overspent orders.

As an example, the Air Force requested maintenance services for 1994 under customer
order number 94000089. CISS continued to provide services into 1996 and overspent
the order by $87,760. When a CISS employee noticed the accrued charges in 1996
and tried to contact the customer to obtain the additional funds, the customer refused to
pay. CISS management acknowledged the overspent amount, but there was no
indication in the order file that someone was held responsible for this overspent amount.
Despite the unsuccessful attempt to obtain additional funds, CISS continued to accrue
these charges as unbilled income.

CISS did not have appropriate financial management policies. The Clinger-Cohen
Act of 1996 caused some confusion on financial management policy that led CISS
employees to believe that customer funds could be used more liberally than before.
Many employees believed that excess funds from one order could be transferred to
other orders to make up for unfunded amounts. The common practice of transferring
funds seemed to encourage project managers to create new orders and provide
services to customers without first obtaining an obligating document. The employees
thought funds could easily be transferred from prior orders to future orders. See
FINDING 3 – TRANSFERRING FUNDS BETWEEN ORDERS for more regarding this practice.

For example, we found a number of orders which had no purchase orders associated
with them at all. In one case involving Navy order numbers 99000194 and 00000194,
CISS performed about $131,000 worth of services without obtaining funds from the
customer. When questioned about the unfunded orders, the project manager indicated
that $141,000 from order number 98000194 for the same customer could be transferred
to the unfunded orders to cover the charges, as was the common practice within CISS.
In this particular case, CISS’ practice of transferring funds might have offset the
overspent amounts; however, in other cases where there were no excess funds, the
assumption that they could transfer funds seems to have encouraged overspending.
For example, CISS provided services totaling about $190,000 to the Army under two
completely unfunded customer order numbers (97001941 and 97001942). Funding for
these orders was supposed to come from order number 96000253; however, CISS
overspent this order as well.

In addition to CISS’ lack of appropriate financial management policies, CISS did not
have appropriate accounting policies for recording these overspent amounts. CISS

                                           10
management did not define a period after which charges were declared uncollectable
and written off. Unbilled amounts could stay on the books as income accruals
indefinitely while CISS waited to receive more funds from the customer. However, the
longer CISS waited to contact the customer regarding additional funds, the less likely it
was that those funds would be collected.

For example, even after the project manager unsuccessfully attempted to collect
overspent amounts in 1996 for customer order number 94000748, CISS continued to
accrue the charges as income four years later.

In conclusion, CISS continued to manage orders based on relatively simple
maintenance agreements even after the organization began to provide customers with
more complex and costly services involving procurement. The order management
system they had relied upon in prior years was not rigorous enough to keep track of
multiple types of services and orders. By not instituting controls to encourage more
rigorous order management and by not holding employees accountable when orders
were overspent, CISS management created an implicit policy to continue services to
customers even if funds were not available.

Recommendations
We recommend that the Director, Center for Information Security Services:
1A. Take immediate action to reconcile overspent orders and contact customers to
    determine if additional funds can be provided. If not, the Center for Information
    Security Services must write off the overspent amounts, in accordance with proper
    accounting procedures;

1B. Develop an order management system which allows timely access to accurate
    financial management data for all parties involved in managing customer orders.
    Such a system should also include an accurate inventory of project managers’
    order assignments; and

1C. Institute written policy establishing proper procedures for incurring obligations which
    ensures that employees do not obligate Government funds before obtaining funding
    from the requesting agency, in accordance with GSA’s financial management
    policy.


FTS Commissioner’s Comments

The Commissioner, Federal Technology Service, concurred with the recommendations.




                                            11
Finding 2 – Excess Customer Funds

CISS has over 500 customer orders with large unused funding balances, which appear
to be excess funds. We conservatively estimate the value of these excess funds at over
$7.9 million2 as of November 2000. Please see Appendix B for a breakout of this
amount by year. These excess funds represent orders from as long ago as 1993 with
remaining balances as high as $900,000. CISS has no clear policy for dealing with
excess funding. As a result, Government funds are not put to best use, and CISS’
customers are not given the opportunity to recoup and reprogram funds in a manner
that best serves their agency and the taxpayer. Furthermore, CISS accepted
substantial funds from customers who may not have had a current bona fide need for
the services to be provided.

Our analysis of CISS’ customer database found that CISS kept customers’ excess
funds for several years after the original work was apparently completed. For some
customer orders, the remaining balances are significant, with some orders showing
remaining balances totaling $900,000. The table below shows customer orders, whose
last activity was prior to January 1999, with remaining balances of $40,000 or more:

                      Customer                     Date of                           Balance
                                                             1                                2
                      Order No.                  Last Service                       Remaining
                       93000224                       10/1/94                      $       44,080
                       94000214                        6/1/96                      $       48,762
                       97001568                        1/1/97                      $       44,057
                       97000837                       10/1/97                      $       92,309
                       97000908                       10/1/97                      $       64,031
                       96000790                       11/1/97                      $       50,238
                       96001672                        2/1/98                      $       89,677
                       96001597                        4/1/98                      $       60,457
                       97000561                        4/1/98                      $       50,000
                       98000123                        6/1/98                      $       93,014
                       98002352                        6/1/98                      $       48,739
                       97001138                        8/1/98                      $       96,776
                       94000577                        9/1/98                      $       42,718
                       97002147                       10/1/98                      $      218,368
                       98001473                       11/1/98                      $      914,621


              1
               Date of Last Service – Date of the last service charge entered for this order number
              2
               The balance remaining represents at least 20 % of the original funds obligated by the
               customer




2
  Our review of CISS’ customer database revealed the existence of 503 customer orders whose last
service date was December 1999 or earlier. The combined value of these orders was over $7.9 million.
Included among these orders were 199 customer orders, with remaining balances totaling about $1.4
million, whose last service date was December 1997 or earlier.


                                                           12
The customer orders shown have been dormant since as long ago as 1994. We
concluded that these orders should be returned to the customer or U.S. Treasury. For
further examples of excess funds, refer to Appendix C. During the audit, we provided a
complete list of orders with excess funds to the CISS’ Director of Business
Management.
CISS received about 85 percent of its customer funding on an advance bill basis, i.e.,
the requesting agency obligated and disbursed funds prior to the start of work. Our
limited contact with customers indicated that they believed that funds had been
obligated and disbursed, and that the orders were closed. However, our overall review
showed that customer personnel often did not know that their orders contained unused
funds. More importantly, some customers believed that the unused funds were better
off remaining in the IT Fund, since they had lost the ability to recoup and reprogram the
funds.

GSA’s Policies Focus on Bona Fide Need
GSA’s policies regarding the acceptance and use of customer funds have as their basis
the bona fide needs rule as stated in Title 31, U.S. Code, § 1502. Funds may be
obligated only to meet a legitimate, or bona fide, need arising in the fiscal year for which
the appropriation was made. The requesting agency must have a bona fide current
need for the goods and services to be provided by GSA at the time the agency enters
into the interagency agreement. GSA’s policy for continued use of customer funds once
the original order is concluded is as follows:

       Customer agencies may ask GSA to use these (excess) funds for another
       task. To validate the request, customer agencies must assure GSA that
       the same bona fide requirement still exists that was present at the time of
       the original obligation, and that the scope of the work remains unchanged.

GSA’s policy regarding the return of excess customer funds is based on a continuation
of the same bona fide need articulated in the original agreement:

       The agency must continue to have a need for the requirements described
       in the interagency agreement. If no further need for the requirements
       exists or the requirements are not within the scope of the interagency
       agreement, any remaining uncommitted funds must be deobligated from
       the IT Fund.

In our opinion, if an order has not experienced activity for over a year, we are
doubtful that a continuing bona fide need exists.

Customers Not Using Funds
Certain customers with current activity held large fund balances while requesting a
limited amount of work. For example, on November 2000, Air Force order number
00000738 had almost $540,000 in available funds while the value of its task orders was
about $25,000. More significantly, this order was funded primarily by purchase orders

                                            13
with 1997, 1998, and 1999 acceptance dates. CISS personnel explained that this order
served as the customer’s “checkbook account,” with funds continually transferred to
other Air Force orders. We suspect that the Air Force did not have an immediate use
for the funds on this order, which had an available balance as high as $925,000 during
August 2000. Furthermore, funding associated with this order was not being used, even
though substantial periods of time had elapsed. The following table shows that
substantial amounts belonging to Air Force order number 00000738 were unused, even
though the purchase orders were accepted during 1997 and 1998:


    EXAMPLES OF PURCHASE ORDERS ASSOCIATED WITH AIR FORCE ORDER 00000738

            Purchase             Amount         Purchase Order         Balance at
          Order Number          Allocated      Acceptance Date       November 2000
       NMIPR0097927811      $       154,147   September 26, 1997   $         138,470
       NMIPR9892008046      $        63,559    August 28, 1998     $          63,559
       NMIPR0098927524      $        22,400   September 2, 1998    $          22,400
       NMIPR0098927600      $        40,000   September 14, 1998   $          40,000
       NMIPR0098927601      $        34,879   September 15, 1998   $          34,879

We concluded that customers providing funding under order 00000738 did not have a
current bona fide need for the services described on their purchase orders.

Excess Funds Not Best Use of Government Funds
We believe that carrying these excess balances, with no apparent need for the funds,
does not represent the best use of Government funds. The amounts we concluded
represented excess funds, totaling over $7.9 million, represent a considerable amount
of lost interest if the principal is dormant in the IT Fund. We concluded that, based on
age and inactivity, the bona fide needs represented by the orders no longer exist.
Therefore, the funds should be deobligated from the IT Fund, in accordance with GSA
policy.

Additionally, Government agencies, which depend on yearly appropriations, lose the
ability to recoup and reprogram the funds for alternate uses after only a short amount of
time. CISS, by not giving proper attention to the excess funds, has lost opportunities to
gain business and increase revenue without having to search for new customers.
Customer funds that are not needed should be returned to the customer or the U.S.
Treasury. As a matter of good business practices, CISS should determine fund
balances promptly after completing an order and contact the customer for appropriate
disposition.

Causes of Excess Funds
We determined several causes for the large amount of unused and apparently
unneeded customer funds. CISS management had no written procedures implementing
GSA’s policy on excess funds. CISS employees were not knowledgeable about basic
statutory authority underpinning GSA’s Government-wide information technology

                                              14
programs. Instead, CISS adhered to an ill defined “five-year policy” regarding the
availability of customer funds.

CISS management did not have procedures to deal with unused funds in
accordance with GSA policy. While CISS personnel continually spoke of their
practice of retaining customer funds for up to five years, they could not articulate the
basis for this practice. Our review indicated that the practice was the result of a
misunderstanding of a 1991 change to OMB Circular A-34, which states that expired
accounts have specific fiscal year identity for five years for adjustments to valid
obligations after which they are permanently closed. However, this change does not
alter the accounts’ period of availability for obligation nor the bona fide needs
requirement. Accordingly, we believe this misinterpretation contributed to the existence
of long-standing excess funds balances.

CISS’ reliance on an unfounded “five year policy” prompted them to keep excess funds
from customer orders instead of deobligating the money in accordance with GSA policy.
To illustrate, we examined Navy order number 96001521, accepted April 30, 1996, that
had 1996 charges totaling over $1.8 million. This dormant order had a remaining
balance of about $62,000 from November 1996 until July 2000. During July 2000, the
Navy customer received over $55,000 of electronic equipment purchased by CISS
almost four years after the last recorded charge. It is interesting to note that the Navy’s
last purchase orders for this order, dated May 15, 1996 and July 23, 1996, were to
“complete the original request for ADP network appliances.” We doubt that the original
bona fide need continued to exist in July 2000, since we feel that CISS would not wait
almost four years to complete the order. Overall, CISS has 503 customer orders, with
no activity since December 1999 or earlier, with remaining balances totaling over $7.9
million. We are skeptical as to whether the original bona fide need exists for the
majority of these orders. CISS should review these orders to determine their eligibility
for either additional work or deobligation from the IT Fund.

CISS adhered to their “five-year policy” despite clear directives from GSA to the
contrary. As stated above, GSA’s policy indicates that if no further need for the funds
exists the uncommitted balance must be deobligated from the IT Fund. This policy
indicates that appropriate disposition of customer funds occur at the point of completion
and not up to four years after work on the order has ceased. However, CISS policy was
to hold the funds for up to five years, and, when the need arose, transfer the funds to
the customer’s overspent orders (see FINDING 3—TRANSFERRING FUNDS BETWEEN
ORDERS).

CISS should institute a policy that gives employees clear guidance on the procedures to
follow if a customer’s order is completed and excess funds are available. The policy
should direct employees to initiate disposition of the customer’s funds on a timely basis,
ideally after a reconciliation has indicated that all charges and receipts have been
accounted for. The policy should indicate that it is appropriate for the project managers
to attempt to find uses for the funds as long as the customer can assure CISS that the
same bona fide need that formed the basis for the original work still exists. If the need

                                            15
no longer exists, the funds should be deobligated to the customer or U.S. Treasury so
that the funds can be put to better use.

CISS employees lacked adequate training. CISS employees did not determine
whether the original bona fide need continued to exist when a project was completed.
Therefore, new work was not created or substantial amounts of unneeded customer
dollars were not deobligated from the IT Fund. In either case, Government funds were
not put to best use.
In addition to the bona fide needs rule, CISS employees were not adequately trained
regarding the statutory authority for GSA’s Government-wide information technology
programs. As an example, several CISS employees could not explain statements that
appeared on many customer purchase orders to the effect that “these funds are subject
to the deobligation requirements of the Economy Act.” Our review determined that,
under section 5112 of the Clinger-Cohen Act, Office of Management and Budget (OMB)
designated GSA as an executive agent for Government-wide acquisitions of information
technology. Due to this specific authority, interagency agreements entered into under
the authority of OMB’s designation are independent of the Economy Act and are not
subject to its deobligation requirements.

We concluded that CISS employees were not adequately trained in the basic statutory
authority underpinning GSA’s Government-wide information technology programs.
CISS employees responsible for customer orders worth millions of dollars should know
and should be able to articulate to their customers the legal basis for the acceptance
and use of customer funds. Our work with GSA’s Office of General Counsel indicated
that basic training in the statutory authority for GSA’s Government-wide information
technology programs should include the following:




                                         16
                           POTENTIAL TRAINING TOPICS
      Clinger-Cohen Act (Title 40 U.S. Code § 1412(e))
                 Specific authority to support agency purchases
                 Office of Management and Budget designation

      Economy Act (Title 31 U.S. Code § 1535)
               Relationship of Clinger-Cohen to Economy Act

      Criteria for Recording Valid Obligations
                   Evidence of a binding agreement
                   Executed within period of availability

      Bona Fide Needs Rule (Title 31 U.S. Code § 1502)
                 Application to acceptance and retention of customer funds
                 Transfers of Funds Between Orders

      Essential Elements of Interagency Agreements
                  Basis of GSA’s authority
                  Bona fide need
                  Identify funding
                  Signatures

      Military Interdepartmental Purchase Requests
                    Used as a substitute for interagency agreement


Summary
CISS controls over $7.9 million in customer funds that appear to be excess. CISS
should identify the funds that can be used for additional work or deobligate them from
the IT Fund. CISS needs to ensure that orders accepted represent current bona fide
needs of the requesting agencies. Written procedures for properly disposing of excess
funds and employee training in the proper use and disposition of customer funds will
help eliminate large amounts of excess funds in the future.

Recommendations
We recommend that the Director, Center for Information Security Services:
2A. Identify orders that are inactive and have excess funds, and then contact customers
    to determine whether the bona fide need, as stated in the original interagency
    agreement, still exists. If the need does not exist, the Center for Information
    Security Services should deobligate the excess funds and return the funds to the
    customer agency or the U.S. Treasury;



                                           17
2B. Ensure that orders accepted represent current bona fide needs of the customer
    agencies;

2C. Institute written policy on procedures to be followed if a customer’s order is
    completed and excess funds are available. This policy should state clearly when it
    is appropriate to apply the customer’s funds for additional work and when the funds
    should be deobligated; and

2D. Develop an employee training program covering the statutory basis for GSA’s
    Government-wide information technology programs and the underlying issues that
    affect GSA’s ability to accept and dispose of customer funds.

FTS Commissioner’s Comments

The Commissioner, Federal Technology Service, concurred with the recommendations.


Finding 3 – Transferring Funds Between Orders

CISS regularly transfers funds between orders. Often, CISS made the transfers to
offset overspent orders. However, the Center for Information Security Services did not
always ensure that transfers of funds were between orders having a similar purpose
and scope. As a result, CISS may not be fulfilling its fiduciary responsibility to properly
manage customer funds.

GSA may use an agency’s funds for any purpose within the scope of the interagency
agreement that serves as the obligating document. Excess funds remaining from any
order may be used for an additional project, provided that the additional project is within
the scope (addresses the same bona fide need) of the original interagency agreement.
If the additional project is not within the scope of the interagency agreement (does not
address the same bona fide need), remaining funds from the original order can not be
used. The same bona fide requirement must still exist that was present at the time of
the initial obligation and the scope of the work must remain unchanged.

CISS did not always ensure that transfers of funds were between orders having a
similar purpose and scope. In one instance, CISS inappropriately transferred funds to
offset an overspent order. Customer order 97001138 was funded by purchase orders
reflecting at least two distinct needs of the requesting agency. CISS had not collected
two years worth of charges associated with an employee who was detailed to the
Interagency Operations Support Staff (IOSS) on a reimbursable basis. CISS, to
compensate for the overspending, transferred $111,494 from a purchase order that was
specifically for public key infrastructure support services. Our review of pertinent work
statements and purchase orders found that the public key infrastructure support
services were unrelated to the work performed at IOSS by the detailed employee.
Therefore, customer funds were not properly managed in this instance.



                                            18
In at least one other instance, instead of returning excess funds after the customer’s
bona fide need had been met, CISS used the funds for a new, unrelated order. Marine
Corps order number 96001719 had a remaining balance of over $177,000 since about
February 1998. The original need, as indicated in the statement of work, was for a
system and network integration project at Camp Pendleton in support of a logistics and
supply system. In response to our fieldwork, CISS contacted the customer about how to
dispose of the $177,000. The Marines indicated that they did not want the funds
returned (they could not reprogram a 1996 annual appropriation) but “would work on a
plan to spend the remaining 177k.” As a result, CISS issued a task order for the
remaining balance ($177,459) to provide “information technology and program
management support to the paperless acquisition programs.” Although the Marines
indicated that they would provide information as to how the paperless acquisition
program supported the original network integration project, the two statements of work
were completely dissimilar. Additionally, the paperless acquisition effort supported
three Marine Corps bases, not just Camp Pendleton. Our conclusion was that the bona
fide need in support of the original order at Camp Pendleton had expired in 1998 and
remaining funds should not have been transferred in support of a dissimilar
requirement.

CISS has at least 590 inactive customer orders representing overspent and excess
amounts. These orders are candidates for write-offs or deobligation based on age and
inactivity. CISS can not transfer excess funds to compensate overspent orders if the
transfers are between orders unrelated in purpose and scope (do not address the same
bona fide need) or if the bona fide need pertaining to the order with excess funds does
not continue to exist.

CISS must ensure that transfers of funds occur between orders with a similar purpose
and scope. The order receiving the transferred funds must address the bona fide need
articulated in the original interagency agreement. As with the Marine Corp example
cited above, we suspect that the original bona fide needs pertaining to CISS’ inactive
orders may not continue to exist. Therefore, inactive orders with excess balances might
not be used to compensate overspent orders.

Recommendation
3A. We recommend that the Director, Center for Information Security Services, ensure
    that transfers of funds between orders occur only between those orders addressing
    the same purpose and scope, i.e., addressing the bona fide need that was present
    at the time of the initial obligation.

FTS Commissioner’s Comments

The Commissioner, Federal Technology Service, concurred with the recommendations.




                                          19
Management’s Preliminary Response

CISS developed an action plan in response to our alert report issued November 29,
2000. In their preliminary action plan, CISS had planned to:
    • reconcile customer orders;
    • eliminate the advance bill option;
    • modify their current billing system;
    • emphasize the impact of improper order management;
    • develop written guidance on the proper use of customer funds; and
    • include a Financial Management Critical Element in all Performance Plans.

Generally, these actions are consistent with our recommendations. Although we did not
mention the elimination of the advance bill option, we anticipate this action will assist
CISS in proper order management by increasing customers’ interest in the financial
status of orders and by increasing CISS’ communication with customer.


Internal Controls

We assessed the internal controls relevant to the management and use of funds made
available to the Center for Information Security Services as reimbursement for services
provided customer agencies. We concluded that the controls established were often
ineffective and provided little assurance that Government assets were reasonably
protected.

We concluded that the control environment, as presently constituted, did not provide
reasonable assurance that fraudulent misapplication of customer agency funds would
be prevented. CISS regularly assigns control of a customer’s account to a single project
manager. Our review noted the existence of customer accounts, containing large sums
of money, that had been inactive for a considerable amount of time. We also noted that
certain customers were not aware of the existence of these unused funds. Given the
above, we concluded that a high potential exists for diversion of customer funds.




                                           20
                                                                     APPENDIX A

                               REVIEW OF
                CENTER FOR INFORMATION SECURITY SERVICES
                      FEDERAL TECHNOLOGY SERVICE
                    REPORT NUMBER A001031/T/5/Z01003

                        Examples of Overspent Customer Orders

             Customer           Last         Year        Amount        Overspent
           Order Number     Service Date   Created      Obligated       Amount
              (Note 1)        (Note 2)     (Note 3)     (Note 4)        (Note 5)

             94000071          6/1/97        1994      $       -      $   301,259
             98002043          4/1/99        1998      $ 510,000      $   234,231
             96001616          5/1/99        1996      $ 2,040,066    $   210,069
             98002534          6/1/99        1998      $    76,600    $   182,502
             96001462         10/1/97        1996      $ 393,503      $   172,356
             97002043          2/1/99        1997      $ 3,628,810    $   149,376
             94000748         11/1/95        1994      $ 100,800      $   113,105
             97001941          9/1/97        1997      $       -      $   110,000
             98001138          2/1/98        1998      $       -      $   100,000
             98002234         11/1/99        1998      $ 527,000      $    99,522
             94000089         12/1/95        1994      $ 178,302      $    87,761
             97001942         11/1/97        1997      $       -      $    81,432
             96001389         12/1/96        1996      $    54,681    $    66,508
             99001242          4/1/99        1999      $       -      $    66,300
             98002283          4/1/99        1998      $ 114,636      $    57,576
             98000490         11/1/99        1998      $ 483,051      $    50,584
             96001699          4/1/98        1996      $    41,400    $    40,367
             97001550         11/1/99        1997      $ 1,125,453    $    36,903
             97000110          8/1/99        1997      $    74,367    $    35,833
             98001942          9/1/99        1998      $       -      $    34,104
             93000197          9/1/96        1993      $    35,681    $    32,759
             94000782          5/1/99        1994      $ 846,932      $    28,704
             93000220          5/1/96        1993      $    63,501    $    25,366
             97000844          8/1/99        1997      $ 123,403      $    23,327
             97002221         10/1/98        1997      $    57,100    $    21,248
             96000779         10/1/96        1996      $ 184,310      $    21,131



Notes:
1. Our review of CISS’ customer database revealed a total of 280 customer orders with
   charges exceeding customer obligations by over $6.4 million. This appendix lists
   those orders, of the 280 identified, with an overspent amount greater than $20,000
   and with a date of last activity prior to January 1, 2000. For a complete discussion of
   overspent orders, please refer to the report section entitled, FINDING 1 – OVERSPENT
   CUSTOMER ORDERS DEPLETE THE IT FUND.


                                           21
                                                                       APPENDIX A

                     Examples of Overspent Customer Orders
                                  (Continued)


2. The date shown represents the last time a charge was applied against the order. A
   charge could represent technicians’ time and materials, materials procured by CISS
   for the order, contracting fees, and other types of related expenses.

3. The year shown represents the Government’s fiscal year, October 1 through
   September 30.

4. The amount obligated represents the amount made available by CISS’ customer via
   a signed purchase order. For orders showing a zero obligated amount, there were
   no purchase orders or funding documents associated with the order.

5. The overspent amount represents the amount obligated, less billed and unbilled
   (accrued) amounts.




                                         22
                                                                               APPENDIX B

                                REVIEW OF
                 CENTER FOR INFORMATION SECURITY SERVICES
                       FEDERAL TECHNOLOGY SERVICE
                     REPORT NUMBER A001031/T/5/Z01003


            Excess Funds That Should Be Considered for Deobligation
                            As of November 2000

             Year of                    Number of                  Total of
          Last Activity             Customer Orders             Excess Funds
            (Note 1)                                              (Note 2)

             1994                           5               $            64,904
             1995                          30                           197,080
             1996                          49                           272,848
             1997                         115                           939,367
             1998                         145                         3,156,560
             1999                         159                         3,278,175
                          Totals:         503               $         7,908,934

Notes:
1. For the number of customer orders shown, the year of last activity represents the
   year in which the last charges against these orders were recorded.

2. For the year of last activity indicated, this amount represents the dollar total of all
   customer orders with excess funds. Our review of CISS’ customer database
   revealed the existence of 503 customer orders with excess funds whose last service
   date (date of last charge) was December 1999 or earlier. As this chart shows, there
   are well over $1 million in customers orders that last saw activity during the period
   1994 to 1997. We concluded that, based on age and inactivity, the bona fide need
   constituting the basis for the orders shown no longer exists. Therefore, serious
   consideration should be given to deobligating these amounts from the IT Fund, in
   accordance with GSA policy




                                                23
                                                                              APPENDIX C

                              REVIEW OF
               CENTER FOR INFORMATION SECURITY SERVICES
                     FEDERAL TECHNOLOGY SERVICE
                   REPORT NUMBER A001031/T/5/Z01003

                     Examples of Excess Customer Funds


  Customer           Last         Year               Amount              Balance at
Order Number     Service Date   Created             Obligated          November 2000
   (Note 1)        (Note 2)     (Note 3)            (Note 4)              (Note 5)

 98001961           1/1/99       1998           $      2,241,357   $           970,352 (Note 6)
 98001473          11/1/98       1998           $      1,386,627   $           914,621
 98002487           6/1/99       1998           $        499,100   $           359,835
 97002147          10/1/98       1997           $        319,700   $           218,368
 96001632          10/1/98       1996           $      1,265,000   $           184,366
 96001719           2/1/98       1996           $      1,423,000   $           177,643
 97002211           4/1/99       1997           $      1,557,670   $           119,642
 96001533           8/1/98       1996           $      2,752,522   $           117,060
 94000271           4/1/98       1994           $        561,705   $           110,061
 98002359          10/1/99       1998           $        532,983   $           101,966
 97001138           8/1/98       1997           $        402,852   $            96,776
 98000123           6/1/98       1998           $        101,286   $            93,014
 97000837          10/1/97       1997           $        314,943   $            92,309
 96001672           2/1/98       1996           $        350,000   $            89,677
 97002182           6/1/98       1997           $        948,000   $            76,438
 97002027           9/1/98       1997           $        600,000   $            71,715
 97002111           3/1/99       1997           $        253,800   $            70,363
 98000739          10/1/99       1998           $      2,007,920   $            67,213
 97000908          10/1/97       1997           $        297,000   $            64,031
 98002350          10/1/99       1998           $        272,000   $            63,581
 98001608           9/1/99       1998           $         68,093   $            61,309
 96001597           4/1/98       1996           $        100,000   $            60,457
 97000661           8/1/98       1997           $        402,850   $            60,379
 99002572           9/1/99       1999           $        104,700   $            59,233
 98001909           1/1/99       1998           $        353,081   $            54,081
 99002617          12/1/99       1999           $         87,550   $            52,489
 96000790          11/1/97       1996           $         96,700   $            50,238
 97000561           4/1/98       1997           $        197,565   $            50,000
 94000214           6/1/96       1994           $         83,489   $            48,762
 98002352           6/1/98       1998           $        110,000   $            48,739
 98001905           7/1/99       1998           $        234,456   $            48,495
 98002560          10/1/99       1998           $        124,440   $            48,397




                                           24
                                                                           APPENDIX C

                   Examples of Excess Customer Funds
                               (Continued)
  Customer         Last         Year               Amount             Balance at
Order Number   Service Date   Created             Obligated         November 2000
   (Note 1)      (Note 2)     (Note 3)            (Note 4)             (Note 5)

 96001398         1/1/97       1996           $       473,755   $            47,700
 99002525        11/1/99       1999           $        63,018   $            45,836
 93000330         3/1/97       1993           $       905,585   $            45,461
 98000936        10/1/98       1998           $       314,415   $            44,206
 93000224        10/1/94       1993           $        61,677   $            44,080
 97001568         1/1/97       1997           $       181,291   $            44,057
 99002682        10/1/99       1999           $       695,000   $            43,982
 94000577         9/1/98       1994           $       160,000   $            42,718
 97002179         1/1/99       1997           $        85,109   $            41,794
 99001985        10/1/99       1999           $        93,766   $            41,623
 98002559         8/1/99       1998           $       329,400   $            41,536
 99002753        12/1/99       1999           $        41,138   $            41,138
 96001502        10/1/96       1996           $     1,267,116   $            40,000
 97001950        10/1/99       1997           $    17,084,597   $            38,503
 97001988         2/1/98       1997           $        88,000   $            36,299
 96001528        10/1/98       1996           $       522,215   $            35,984
 96001756        10/1/99       1996           $       566,214   $            35,736
 98002382         7/1/98       1998           $        82,890   $            35,513
 97002120        10/1/99       1997           $       170,146   $            35,465
 94000777         2/1/95       1994           $        41,812   $            35,190
 97002163         6/1/98       1997           $       491,026   $            35,102
 95000117        11/1/97       1995           $       640,483   $            34,802
 98002367        12/1/99       1998           $       715,610   $            34,214
 98002537         9/1/99       1998           $        51,797   $            31,420
 96001713         1/1/97       1996           $        91,189   $            30,527
 97002137         6/1/99       1997           $       250,000   $            29,932
 97001382        10/1/97       1997           $        66,618   $            29,669
 97002281         6/1/98       1997           $        41,852   $            29,266
 97001268         1/1/98       1997           $        53,000   $            28,862
 97002065         5/1/99       1997           $       375,584   $            28,757
 97002236        10/1/98       1997           $       145,000   $            28,051
 96001549         7/1/97       1996           $     1,814,552   $            27,615
 99000902        10/1/99       1999           $        41,954   $            27,556
 98000413         3/1/99       1998           $        48,716   $            27,063
 97001067        12/1/97       1997           $       142,923   $            26,960
 96000314         3/1/97       1996           $       828,553   $            26,173
 96001598        10/1/99       1996           $        91,437   $            26,110
 96001242         1/1/99       1996           $       387,600   $            25,434


                                         25
                                                                          APPENDIX C

                       Examples of Excess Customer Funds
                                   (Continued)

Notes:
1. Our review of CISS’ customer database revealed a total of 503 customer orders
   whose last service date (see Note 2 below) was December 1999 or earlier. These
   customer orders represented about $7.9 million in unused funds. This appendix lists
   those orders, of the 503 identified, with a current balance in excess of $25,000. For
   a complete discussion of unused funds, please refer to the report section entitled
   FINDING 2 – EXCESS CUSTOMER FUNDS.

2. The date shown represents the last time a charge was applied against the order. A
   charge could represent technicians’ time and materials, materials procured by CISS
   for the order, contracting fees, and other types of related expenses.

3. The year shown represents the Government’s fiscal year, October 1 through
   September 30.

4. The amount obligated represents the amount made available by CISS’ customer via
   a signed purchase order.

5. The customer order balance represents the amount obligated, less billed and
   unbilled (accrued) amounts. The amounts shown are part of a pool of 503 customer
   orders, with balances totaling over $7.9 million, that have been left unused by CISS
   since December 1999 or earlier.

6. This customer has a large balance because charges were applied to another
   customer’s order. See FINDING 1 – OVERSPENT CUSTOMER ORDERS DEPLETE THE IT
   FUND, for a discussion of how a fragmented organization led to mistakes of this
   magnitude.




                                          26
27
                                                             APPENDIX E

                                REVIEW OF
                 CENTER FOR INFORMATION SECURITY SERVICES
                       FEDERAL TECHNOLOGY SERVICE
                     REPORT NUMBER A001031/T/5/Z01003


                                REPORT DISTRIBUTION
                                                             Copies

Commissioner, Federal Technology Service (T)                   1

Director, Center for Information Security Services (TI)        1

Director, Office of the Chief Financial Officer (TC)           1

Executive Director, Greater Southwest Finance Center (7BC)     1

Assistant Inspector General for Auditing (JA)                  3

Audit Follow-up and Evaluation Branch (BECA)                   1




                                             28
